<html>
<title> - A REVIEW OF THE PRESIDENT'S ANNUAL CERTIFICATION PROCESS</title>
<body><pre>[Senate Hearing 106-750]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-750



                      A REVIEW OF THE PRESIDENT'S
                          CERTIFICATION PROCESS

=======================================================================

                                HEARING

                               Before the

                     SENATE CAUCUS ON INTERNATIONAL
                           NARCOTICS CONTROL

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2000




                   U.S. GOVERNMENT PRINTING OFFICE
67-601                     WASHINGTON : 2000


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


            SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL
                       one hundred sixth congress

                  CHARLES E. GRASSLEY, Iowa, Chairman
                  JOSEPH R. BIDEN, Delaware, Co-Chair
JEFF SESSIONS, Alabama               BOB GRAHAM, Florida
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
SPENCER ABRAHAM, Michigan
                      Wm. J. Olson, Staff Director
                 Marcia S. Lee, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENT

                                                                   Page
Senator Charles E. Grassley......................................     1
Senator Dianne Feinstein.........................................     3
Senator Paul Coverdell...........................................     6
Senator Jeff Sessions............................................     9

                                PANEL I

The Honorable Rand Beers, Assistant Secretary of State for 
  International Narcotics and Law Enforcement Affairs, Department 
  of State.......................................................    11
    Prepared Statement...........................................    13
Donnie Marshall, Administrator, Drug Enforcement Administration..    17
    Prepared Statement...........................................    21

                          SUBMITTED QUESTIONS

Donnie Marshall, Administrator, Drug Enforcement Administration..    51
The Honorable Rand Beers, Assistant Secretary of State for 
  International Narcotics and Law Enforcement Affairs, Department 
  of State.......................................................    68

 
        A REVIEW OF THE PRESIDENT'S ANNUAL CERTIFICATION PROCESS

                              ----------                              


                        TUESDAY, MARCH 21, 2000

                                       U.S. Senate,
                 Caucus on International Narcotics Control,
                                                    Washington, DC.
    The Caucus met, pursuant to notice, at 10:03 a.m., in room 
SD-215, Dirksen Senate Office Building, Hon. Charles E. 
Grassley, chairman of the Caucus, presiding.
    Present: Senators Grassley, Coverdell, Sessions, and 
Feinstein.
    Senator Grassley. I want to thank everyone for being here 
today, and I know we have sparse attendance because of the bad 
weather and we have some witnesses yet that have to come, but 
we will go ahead and get started anyway.
    Our hearing today is to look at the certification decisions 
that the President forwarded to Congress under law March 1. The 
law requires that on each March 1 the President submit to 
Congress his assessment on international cooperation to control 
illegal drug production and transit. It also requires details 
on cooperation to combat money laundering and the sale of 
chemicals used to produce illegal drugs. In addition, it also 
requires the submission to Congress of the International 
Narcotics Control Strategy Report, and that is this voluminous 
document that I am holding up here.
    The report is the single most detailed drug report on 
international drug production, and also the efforts that we are 
putting forth to combat it. The International Narcotics Control 
Strategy Report gives us the factual basis for understanding 
the current state of illegal drug production and international 
cooperation that is being conducted to stop it.
    I believe the certification process is very, very 
important. It is important to focus at least once a year the 
attention of Congress and the administration on drug policy. It 
is important as a key element in protecting U.S. national 
interests.
    There are some basic principles that I think we need to 
grasp about this very serious matter of drugs. We don't do drug 
policy as some sort of luxurious process or as an add-on item 
for either Congress or for the executive branch of Government. 
Most drugs consumed in this country are produced overseas and 
smuggled here. Those drugs actually kill thousands of Americans 
and endanger many more every year.
    This is something that we all believe we need to fight, 
although sometimes we tend to forget how seriously we ought to 
take it and how intensive our fight ought to be. And, of 
course, we have partners in this fight, and that is the other 
countries that are engaged in it. We have a moral obligation 
and responsibility to ensure the general welfare and, of 
course, that general welfare involves the lives of our young 
people and the safety of our schools and streets.
    Certification is not some abstract policy for a bunch of 
Washington bureaucrats to play with. It is about taking drugs 
seriously and doing something serious about drugs both here and 
abroad. This is something that we all need to be engaged in and 
working together on the combating of. The drugs that we are 
talking about are in every town and in virtually every rural 
community in Iowa and on Main Street, USA.
    I just saw statistics from my own State, from counties that 
had hardly any drug arrests 4 or 5 years ago that are having an 
incomprehensible number of drug arrests in rural counties 
numbering in the hundreds now. Well, these drugs got there 
because some drug thug is pushing them, and in most cases the 
fields and the labs for making the drugs are overseas.
    Congress, in a bipartisan consensus, created the 
certification process in the mid-1980s for a clear reason to 
accomplish a clear set of goals. The country was in the midst 
of a major drug epidemic, and still is. At that time, the 
public was deeply concerned about it. Congress shared that 
concern and recognized that all of the major illegal drugs 
consumed here were produced overseas. Those illegal drugs were 
grown illegally in some other country. They were processed 
illegally in those countries. They were smuggled out of those 
countries illegally, and they were illegally smuggled into the 
United States. Drug traffickers broke local laws in the 
countries of origin internationally and in the United States. 
That did not bother them.
    It was also clear that many of the producing and transiting 
countries for those drugs did not much care either. Corruption 
and intimidation of local officials accounted for much of the 
indifference. But in many cases, local authorities were content 
to ignore local drug production. Doing this required ignoring 
or not enforcing local laws, international agreements, and 
bilateral agreements with our country. That was then and still 
is not acceptable.
    We need to take the drug problem seriously and we need to 
ensure that we aren't the only country that does. Certification 
is one tool to do that. It is only one tool, but it is an 
important tool. In today's world, despite many changes, this 
country taking something seriously still counts and has an 
influence upon other countries. We ought to make sure that we 
are still standing up and being counted on this issue.
    Although the State Department opposed this idea initially, 
every single drug report in the last several years has 
acknowledged the critical importance of the certification 
process in winning cooperation, of fostering it where it did 
not exist, of shoring it up where it did, and of setting a 
standard for international cooperation.
    Of course, not many foreign governments liked the process, 
but then they obviously might not. But they still worked with 
us to varying degrees, but tried to satisfy us. More recently, 
however, some in the administration have helped to create the 
impression here and abroad that the certification process is 
not helpful. Senior officials of this administration have 
attacked the process overseas. They have supported efforts to 
circumvent it, they have endorsed efforts to cut it and 
basically use it to play games.
    Last year, the administration dropped Iran and Syria from 
the majors list. They did this without prior consultation with 
Congress, and they resorted to flimsy legal gimmicks and 
sleight of hand with the facts in order to pull off the 
dropping of Iran and Syria. I don't know why it is that such 
rogue states and enemies of this country seem to get such 
special treatment.
    Similarly, North Korea, long reputed to be deeply involved 
in drug trafficking, has avoided serious scrutiny. It is kind 
of game of catch-22 that is played. The administration did not 
report on North Korea until Congress required it. And despite the fact 
that the President assured Congress that North Korea would be the 
subject of a closer watch, this year's drug report reads almost the 
same as it did last year.
    I had my staff ask senior intelligence officials how these 
numbers were arrived at, the numbers that were being reported, 
and we did not get an answer. The answer turns out to be that 
they are the same because no one took a harder look.
    So here is the catch-22 in play: in order to know the 
answers, you have to ask the questions. You can't report on the 
scale of opium production unless you look, and no one is 
looking to see what that scale might be. The administration 
cannot find any hectares because they are not looking for 
places of production. How convenient.
    It was never the intent of Congress, nor was it understood 
by previous administrations that major drug-producing and 
transiting countries could escape scrutiny on a technicality. 
So we get back to the legislation. I think the legislation and 
its intent is very clear: to make international trafficking in 
illegal drugs a major U.S. national security concern, and more 
than a concern, to make a subject of serious action.
    This ought to be something where we see more cooperation 
and more serious commitment. That is why I find the 
gamesmanship on this issue very disappointing. I hope that 
today we can get some answers on how to do better in making the 
certification process work to accomplish serious policy goals.
    I call on Senator Feinstein, and then Senator Sessions.
    Senator Feinstein. Thank you very much, Mr. Chairman. Let 
me just say that I very much agree with you. I think if there 
is a soft underbelly in this Nation, it is drugs. And I am one 
that agrees that we have a demand problem and we are trying to 
address that problem. I am one that also believes that there is 
one area which is the total responsibility of the Federal 
Government, and that is in interdiction and enforcement. No 
local government can do it and no State government can do it.
    Mr. Chairman, last year you, Senator Coverdell, Senator 
Sessions, Senator Hutchinson of Arkansas, and Senators 
Torricelli, and myself sent a letter to the administration 
suggesting new benchmarks in certifying Mexico as a partner in 
the war on drugs. I want to just quickly go over what those 
benchmarks are and then I want to comment on progress, as I 
understand it, in each of the areas.
    The benchmarks were extradition of major drug traffickers 
wanted in the United States on drug charges; secondly, arrest 
and prosecution of the leaders of the major drug syndicates; 
third, enforcement of money laundering laws; fourth, improved 
eradication and seizure efforts; fifth, increased cooperation 
between the United States and Mexico counter-narcotics forces; 
and, lastly, conclusion and implementation of U.S.-Mexico 
maritime agreement.
    Now, let me begin by saying that there is evidence to 
suggest that the Mexican government is now cooperating with the 
United States on a number of levels. On the other hand, 
certainly not enough progress has been made on any level to 
have a real impact on the massive, ever-expanding and ruthless 
drug cartels throughout Mexico.
    Extradition, I believe, is the key to judging cooperation 
between the two countries. The willingness to apprehend and 
turn over those criminals facing justice for crimes against 
this Nation would be one true sign that our two nations are in 
sync. We have turned over more than 80 people to Mexico in 
recent years, including at least 12 United States citizens.
    Only by removing powerful drug kingpins from their 
surroundings in Mexico can we ever hope to dismantle these 
complex and sophisticated criminal organizations. Left in 
Mexico, even in jail, these kingpins can continue to run their 
businesses, order hits on their enemies, and reap the profits 
of their corrupt and illegal activities.
    There is some evidence to suggest that things are getting 
somewhat better in this area. The Zedillo administration's 
policy for the first time allows the extradition of Mexican 
nationals. As a result, last year saw the first Mexican 
national ever extradited solely for drug offenses, Tirzu Angel 
Robles, and the government has agreed to turn over a number of 
key drug traffickers of Mexican nationalities; for instance, 
Jesus Amezcua and his brother, of the methamphetamine cartel. 
Unfortunately, that case, like many others, is now bogged down 
in the Mexican court system.
    Further, the average number of persons extradited per year 
from Mexico has jumped from just one in 1994 to more than ten. 
However, there is much more to be done on the extradition 
front. For instance, not one major drug kingpin of Mexican 
nationality has yet been extradited, and the number of pending 
cases remains well over 100; about 125, according to the 
Department of Justice.
    I do recognize that much of the problem now rests with the 
system of judicial appeals in Mexico which is, at least to some 
extent, beyond the control of the Zedillo administration. 
However, I will be watching closely to see how the Mexican 
supreme court rules in the Arturo Paez Martinez case. If the 
court rules, as some expect, that no more Mexican nationals can 
be extradited to this country, I would hope that the Mexican 
legislature would take swift, sure steps to correct the fluke 
in the law that will allow this to happen.
    There is also significant evidence that the Mexican 
government is cooperating on interdiction, seizures, and 
eradication. Seizure numbers for many drugs are at an all-time 
high, and I want to quickly go through them. From 1998 to 1999, 
cocaine seizures increased 7 percent, from 24.1 tons to 25.74 
tons. Marijuana seizures increased 47 percent, heroin seizures 
82 percent, opium gum seizures 409 percent, and marijuana 
eradication seizures 38 percent. Additionally, close 
cooperation between the Mexican Navy and the Coast Guard has 
led to an increasing number of multi-ton seizures of cocaine: 
over 6 tons in June, 8 tons in August, 8 tons in September, and 
2.6 tons in December.
    Now, I think it has to be pointed out that never before in 
history have these kinds of tonnages been found in drug 
trafficking, and the point I would like to make is that tons 
suggest that heroin and cocaine aren't coming across the border 
in backpacks; it is coming across the border in large loads. 
And this would bring to bear Senator Coverdell's and my drug 
trafficking kingpin legislation, and my hope that our 
Government will begin as soon as possible to enforce that 
legislation.
    I think we both believe that those who transport these 
large loads of narcotics are equally guilty, and the 
drugkingpin legislation sets into motion a procedure to deal with this. 
I, for one, will be looking very closely at the administration to see 
that this law is put in place and enforced and carried out as we mean 
it to be.
    Let me touch on corruption. There is evidence that the 
Mexican government is stepping up its fight against corruption. 
Mexican authorities have reportedly fired more than 1,400 of 
3,500 federal police officers for corruption, and so far more 
than 350 have been prosecuted. In fact, when a court demanded 
the reinstatement of fired officers, the Mexican government 
rectified that situation by changing the law, and I for one 
appreciate that.
    The Mexican government showed an unprecedented level of 
cooperation late last year in allowing the FBI to participate 
in the Juarez investigation on Mexican soil. I know that not 
everyone within Mexico was pleased with having the FBI on 
Mexican soil, but the Mexican government went forward with 
cooperative efforts despite internal dissent and this indicates 
a strong desire to cooperate. Recently, when Tijuana saw its 
second police chief gunned down in less than 6 years, the 
government arrested 7 suspects in that investigation. This 
details cooperation on the rise.
    On the other hand, significant problems do remain. There 
are frequent DEA reports of a lack of cooperation below the 
border and of a system so corrupt and so full of leaks that 
mounting a secret operation against a major drug trafficker is 
simply impossible.
    No real progress has been made toward dismantling the major 
drug trafficking organizations, which was one of the benchmarks 
the six of us suggested to the administration. Known drug 
kingpins are still too free to move about the country with no 
fear of arrest even when our own officials warn the Mexican 
government of the whereabouts of those criminals.
    A good case in point is the governor of Quintana Roo that 
everybody agreed was guilty of criminal complicity with drug 
traffickers. He had at least two teams of detectives on his 
tail. He was scheduled to be arrested the day he left office. 
The day he left office, despite the tails, he and his family 
disappeared. Their whereabouts are unknown as of today. When 
arrests and prosecutions do occur, it is often only the low-
level operatives that face eventual prosecution. The high-level 
traffickers still escape the system.
    Some Mexican courts have begun to rule that no extradition 
may take place if the person in question faces life 
imprisonment in the United States. This is extremely 
problematic. Our treaty already eliminates the death penalty as 
an option for any person extradited from Mexico, and some 
crimes carry the possibility of only two sentences--life in 
prison or death. If our Government must forego both 
possibilities, we will face an extremely difficult situation.
    And we may soon face a decision by the supreme court of 
Mexico in the Arturo Paez Martinez case that bars the future 
extradition of any Mexican national. Let me be clear. This 
sends a clear and dangerous signal in the wrong direction. If 
such a decision does occur, I believe it would be vital to 
continued cooperation between our two nations that the Mexican 
legislature take swift steps to correct the law because without 
extradition, the drug cartels will never, in my view, be 
brought to justice.
    There are several questions that must be answered. Is 
Mexico doing everything it can, given the political situation, 
to extradite drug traffickers? Is Mexico doing everything it 
can, again given the political situation, to eradicate crops of 
illegal narcotics? Is Mexico doing everything it can, given the 
political situation, to intercept drugs on their way to this 
country, and are they doing everything they can to root out 
corruption within their own ranks?
    Another signal recently was the person in the attorney 
general's office who committed suicide with $750,000 in a bank 
account. Where did that money come from? Did this indicate 
complicity on the part of that office? If not, what were the 
circumstances? These are major situations and they have to be 
addressed.
    Additionally, as far as I am concerned, I will be 
interested to hear from the DEA whether there has been improved 
intelligence between Mexican authorities and our authorities in 
the drug battle because only if there is good intelligence-
sharing and the ability to have mutual trust on the both sides 
of the border are we really ever going to be able to get at the 
major traffickers who are the heads of the drug syndicates or 
the five large Mexican cartels.
    I thank you, Mr. Chairman.
    Senator Grassley. Thank you, Senator Feinstein.
    Now, Senator Coverdell, then Senator Sessions, and then we 
will go to our panel.
    Senator Coverdell. Mr. Chairman, first, I thank you for 
calling this hearing. And in the name of time, which the Senate 
is always too pressed to accomplish, I will just submit my 
statement to the record.
    [The prepared statement of Senator Coverdell follows:]
    
    [GRAPHIC] [TIFF OMITTED] T7601A.001
    
    [GRAPHIC] [TIFF OMITTED] T7601A.002
    
    Senator Coverdell. I will just make a comment that I 
appreciate the extensive statement of Senator Feinstein of 
California, and have appreciated the ability to work with her 
on this question. It is a complicated dilemma. Clearly, there 
are signs, as she has noted, that progress is being made, but 
it is the scope of the problem, I think, that raises the 
questions that we continually confront. It is just so large 
that it does raise questions about what our ally, the Republic 
of Mexico, can do and accomplish.
    I think there are some pretty serious questions about what 
we are doing and what we are accomplishing. You could read a 
pretty rugged list for ourselves. But, again, I am very 
appreciative of the work she has done, the chronology of data 
that has been presented here in her statement. I will look 
forward to continuing to work with each of the members that are 
present here today in trying to determine what is the best use 
of our time and energy as we try to develop the appropriate 
tools to deal with this international crisis.
    I will just end with it does appear to me that government 
to government we are making some headway. There are the legal 
ramifications of extradition, but the scope of the problem and 
the depth of it in the Republic of Mexico is very deep and very 
broad. I have thought to myself, well, if I were president of 
that republic, just what would I do,given all the depth of the 
problem there.
    I will stop with that, Mr. Chairman.
    Senator Grassley. Senator Coverdell, thank you for your 
leadership as well as your statement.
    Senator Sessions.
    Senator Sessions. Well, I think my friend from Georgia 
raises a good question. If you were president of Mexico, what 
would you do? I believe that the president of Mexico and the 
leaders of a lot of these nations need to ask themselves that 
very question and to recognize that the danger of the 
increasing narco empire is so great that they had better take 
strong leadership to make changes.
    Bolivia has made that decision without a lot of Federal 
money from the United States Government. If we have got to give 
money to countries to help them fight drugs, I say give it to a 
country that has made progress. I think Bolivia ought to be a 
beneficiary of our support.
    But, fundamentally, a nation is not going to be successful 
until that nation itself desires to eliminate drugs within 
their borders, to stop the ever-growing corruption and big 
money that comes from it. And, frankly, Mexico is not there, 
Mexico is not there. If you extradite one or two more people, 
what is that? Zero, nothing.
    The Senator from California was looking to some of these 
supreme court rulings and other matters, but I would just 
suggest we will come back here next year and you can count on 
one hand the number of people that have been extradited. These 
narco businesses are so large and so prominent they cannot be 
overlooked. You have to be blind not to know they exist, with 
the wealth they are accumulating in a country that is not known 
for wealth.
    So I have been hearing these speeches since the 1980s, 
1970s. I have been reading and following the testimony in these 
hearings, and Mexico and Colombia have promised to do better 
and better, but it hasn't gotten any better. From all I can 
see, nothing substantially has changed because it is going to 
take leadership with a firm will who is willing to pay some 
significant prices to eliminate or substantially reduce drugs.
    I am asking myself why are not large numbers of these 
Mexican cartel members in Mexican jails, why do they have to be 
indicted in the United States. They passed last year, or the 
year before last, laws for money laundering. How much money has 
been taken from the drug cartels? It doesn't do any good, it is 
nothing but a meaningless gesture to pass money laundering 
legislation if it is not going to be used. What good is it to 
have laws that allow forfeiture of illegal assets if drug 
cartel members live in huge homes and amass large tracts of 
land and drive the most fancy automobiles and that sort of 
thing, and have huge amounts of cash that is not being seized?
    So I would just suggest that Mexico is not where it needs 
to be. Colombia, as we know, has had a huge increase in the 
last year, I believe nearly double the increase in exporting 
and production of cocaine to the United States. How can that be 
considered progress? I don't know.
    I have suggested here previously that I am not sure this 
certification process is of any benefit. If a nation wants to 
sink into this kind of narco corruption, I am not sure the 
United States has any power to stop it. It will take an 
individual decision by that country perhaps more than acts from 
the United States to change it.
    And, frankly, we ought not to misunderstand. If our concern 
is about the United States and the drug problem we have in this 
country--and I don't like the trends in the last 7 or 8 years--
if that is our concern, we have got to do it here. We are not 
going to be able to blame our drug problem on Colombia or 
Mexico.
    When we have a consistent, strong, steadfast anti-drug 
policy in this country, as we have had, we can win this war on 
drugs. We have, in fact, driven down, from 1980 to 1992, by 50 
percent the number of high school seniors, according to the 
University of Michigan study, who have used drugs. That was a 
great success. It has gone up in recent years and now the last 
year or two it has sort of flattened out, but we have had a 40-
percent increase since 1992 in drug use, and I think it is a 
lack of will at the top in this country.
    We need to send a clear and certain message, and I know the 
previous head of DEA is not happy about the Mexican situation. 
He testified courageously last year at this committee that he 
could not see--basically, I would interpret his testimony to be 
that he could not see how Mexico could be certified, and he 
cited a litany of bad news from Mexico.
    So I don't know the answer. I know this: Mexico is a great 
country, it is our neighbor. We had a great conference down in 
your State last year with a large number of Mexican members of 
parliament and we were able to discuss these issues and others. 
I long for continued and improved relations between our two 
countries, but how to achieve it I am not sure.
    So I am not sure I have said anything worthwhile, Mr. 
Chairman, other than having been involved in drug matters for a 
long, long time, I remain concerned about our ability to effect 
anything in some of these nations. When you have got leaders 
like in Bolivia that put their mind to it, they can make great 
progress, and that is what I would like to see in a number of 
other countries. And I am concerned about the Netherlands, I am 
concerned about North Korea, I am concerned about Jamaica, and 
I am glad you will be talking about that, too.
    Thank you, sir.
    Senator Grassley. Thank you, Senator Sessions.
    We will now go to our panel. We are going to hear from Mr. 
Beers first and then Mr. Marshall, and we will hear from both 
of you before we ask questions. I welcome you and thank you for 
your time and attention, and particularly for listening to our 
opening statements.
    Rand Beers is Assistant Secretary of State at the Bureau of 
International Narcotics and Law Enforcement Affairs. He has 
held that position since 1998. This is the bureau responsible 
for producing the strategy that I referred to, the 
International Narcotics Control Strategy Report. He will be 
followed by Donnie Marshall, who currently serves as Acting 
Administrator of DEA, and has been in that position since July 
of 1999. Both of you have testified before Congress at past 
hearings, and we appreciate that cooperation as well as this 
morning.
    Mr. Beers.

STATEMENT OF HON. RAND BEERS, ASSISTANT SECRETARY OF STATE FOR 
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT 
                   OF STATE, WASHINGTON, DC.

    Mr. Beers. Thank you, Senator Grassley, and distinguished 
members of this panel. Thank you for the opportunity to appear 
before this body and to discuss the issue of certification.
    We in the administration agree with you completely, Senator 
Grassley, that this is an important instrument available to the 
administration. We may not have been happy originally to 
receive this instrument, but as one who has been responsible 
now three times for carrying it out, I am here to tell you that 
we consider it a useful and important tool that we will 
continue to work on and improve and make as effective as 
possible.
    I have submitted to you in advance a longer piece of 
testimony which I ask be submitted to the record, and I will 
very briefly make two or three comments before turning it over 
to my colleague, Mr. Marshall.
    Senator Grassley. In both cases, your statements will be 
printed in the record as you submit it.
    Mr. Beers. Thank you, sir.
    With respect to certification in a general sense, to take 
your point, Senator Grassley, about its importance, I would 
just like to highlight what I think are two very important and 
significant results of the overall certification process, and 
that is the efforts in the Western Hemisphere, starting with 
the Miami Summit of the Americas which built upon the Cartagena 
and San Antonio summits, whereby the nations of this hemisphere 
came together, wrote up a hemispheric strategy, followed that 
with a plan of action, and now most recently in Montevideo, 
Uruguay, with a multilateral evaluation mechanism.
    This process within this hemisphere, I think, was born of 
the certification legislation and the efforts by the United 
States to make ourselves and nations around the world aware of 
the seriousness of the drug problem and the need for all of us 
to work together to do something about it.
    Similarly, the UN General Assembly special session of two 
summers ago, in which all the nations of the world came 
together and wrote out a plan of action with goals and 
objectives for the entire globe to look forward to over the 
next 10 years, I think represents a second area in which the 
level of awareness of nations around the world of the 
importance and seriousness of the drug problem and the need to 
do something about it again came as a result of the increased 
attention that we and other nations have paid to this problem 
and the need for nations to work together to deal with it.
    That said, with respect to individual nations, which is 
after all what certification is specifically about, there is a 
mixed result. But we come to you today with the intent of 
answering your and the other Senators' questions in order to 
have a full and frank exchange.
    Let me stop there. You all have raised a number of 
interesting and good questions. I won't try to answer them in 
my opening statement, but I look forward to answering them 
individually.
    Thank you.
    Senator Grassley. Thank you, Mr. Beers.
    [The prepared statement of Mr. Beers follows:]

    [GRAPHIC] [TIFF OMITTED] T7601A.003
    
    [GRAPHIC] [TIFF OMITTED] T7601A.004
    
    [GRAPHIC] [TIFF OMITTED] T7601A.005
    
    [GRAPHIC] [TIFF OMITTED] T7601A.006
    
    Senator Grassley. Mr. Marshall.

  STATEMENT OF DONNIE R. MARSHALL, ACTING ADMINISTRATOR, DRUG 
    ENFORCEMENT ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE, 
                        WASHINGTON, DC.

    Mr. Marshall. Good morning, Mr. Chairman and members of the 
caucus. I also appreciate the opportunity to be here today to 
discuss these very important issues, and I also have submitted 
a detailed statement for the record.
    First, I want to thank the caucus members for your support 
to DEA and to drug law enforcement in general. Your support and 
the support of the American people, I think, is absolutely 
essential for DEA and law enforcement to do their efforts, to 
do their missions. I also believe that the certification 
process is a very effective tool in the international anti-drug 
effort.
    Each year, DEA provides the Attorney General what we 
believe is an objective assessment of the drug trafficking 
situation in the major source and transit countries, and we 
base that upon evidence and factual information that comes to 
DEA. We present those facts to the policymakers so that they 
can make an informed decision on the certification of each 
respective country.
    Now, as a part of my written testimony, I have included the 
drug trafficking assessment for many of these countries, 
particularly the ones that have been either decertified orgiven 
a waiver recently, countries such as Afghanistan, Burma, Cambodia, 
Paraguay, Nigeria, and Haiti. But because of the magnitude of the 
threat posed by Mexican drug trafficking organizations, I am going to 
direct my opening comments to the drug trafficking situation in Mexico.
    DEA's primary mission, as you probably know, is to target 
the highest levels of international drug trafficking 
organizations operating in the world today. And I believe 
personally that the Mexico-based organizations are the greatest 
threat that we face in the United States today, perhaps the 
greatest threat that we have ever faced. And I believe this is 
especially true when you consider the Mexican trafficking 
organizations' alliances with the Colombia-based traffickers 
and their involvement in all four of the major drugs consumed 
in the United States--cocaine, heroin, marijuana, and 
methamphetamine.
    Now, in addition to drug trafficking, these criminal 
organizations are responsible for violence; they are 
responsible for corruption and intimidation. And these things, 
I believe, threaten the safety and stability of communities and 
cities and towns in both Mexico and in the United States.
    Now, with the disruption of the Medellin and Cali cartels 
in Colombia in the early 1990s, the Mexican trafficking groups 
really grew in importance to our country. They consolidated 
their power and they started to control drug trafficking not 
only along the U.S.-Mexican border, but in many other parts of 
the United States as well.
    So in response to that increasing role of the Mexican drug 
traffickers, DEA and other Federal agencies established a 
Southwest Border Initiative to attack the command and control 
structure of these organized criminal groups associated with 
the Mexico- and Colombia-based organizations.
    Now, the DEA, the FBI and the U.S. Customs Service, along 
with many, many of our State and local counterparts across the 
country, have been very successful and very effective at that 
strategy over the last several years. We have conducted major 
operations inside the United States that have wiped out 
Colombian- and Mexican-controlled cells operating here in this 
country. We have done that time and time and time again in 
operations like Zorro and Reciprocity and Limelight and others.
    The most recent of those operations was Operation Impunity, 
and I want to talk about that for just a moment. That was a 2-
year international investigation that was conducted 
predominately by DEA, FBI, Customs, and our counterpart State 
and local agencies here across the country. That operation 
culminated back in the fall and we arrested 106 individuals 
that were linked to the Amado Carrillo-Fuentes organization 
based in Mexico. Now, in addition to the arrests, that 
investigation resulted in 36 separate drug seizures totaling 
over 12,000 kilograms of cocaine and over $19 million in U.S. 
currency.
    But I also have to add that the limitation of operations 
like this is really that the cell heads operating inside the 
United States, the people that we predominately go after at the 
highest level inside the United States, can be easily replaced 
by the traffickers. And we have not yet been able to 
successfully reach inside Mexico to arrest and imprison the 
real leaders of these organizations, leaders such as Vicente 
Carrillo-Fuentes, leaders such as the Arellano-Felix brothers 
and many, many others. And I will add also that many of those 
command and control figures are indicted here in the United 
States.
    Now, we do have ongoing efforts inside Mexico. In fact, we 
worked very well with a small core of dedicated people inside 
the Mexican attorney general's office. And I would point out 
that the Mexican attorney general himself, Mr. Jorge Madraso, I 
believe to be a dedicated professional who is trying to do the 
best job possible under the circumstances that he is dealing 
with.
    Within Mexico, the DEA and the Mexican equivalent of DEA, 
an organization called the Fiscalia Especializada Para la 
Atencion de Delitos Contra la Salud--that is a mouthful for me, 
so I am going to refer to them by their acronym, FEADS--DEA and 
the FEADS continue to conduct joint investigations throughout 
Mexico. And we cooperate with that organization very well on a 
day-to-day basis.
    But the investigative achievements of the FEADS and the 
other law enforcement agencies in Mexico--the achievements 
against the command and control structures of the major Mexican 
drug trafficking organizations have been minimal. And I 
certainly agree with Senator Sessions' assessment in that 
regard.
    Additionally, it is no secret that elements of the Mexican 
government have just been mired in corruption in recent years, 
and certainly the government of Mexico recognizes that as well. 
In fact, the Federal Preventive Police was created in 1999 in 
response to that corruption problem.
    The government of Mexico reported that since April of 1997, 
as Senator Feinstein pointed out, more than 1,400 federal 
police officers have been fired for corruption. Unfortunately, 
some of those have been rehired. Of those, over 350 were fired 
in 1999, and I am told that that situation that resulted in the 
rehiring is corrected and that these more recently people will 
not be rehired.
    Now, it is gratifying to me that this action is being taken 
against corruption in Mexico, but when you look at the numbers, 
I think those are sobering numbers and it is an indication of 
the large scale of corruption that exists in Mexico.
    Now, I want to give you one very alarming example of an 
incident involving corrupt Mexican police officials which 
occurred on November 9 in Mexico, actually in Matamoros. We had 
DEA and FBI special agents de-briefing a confidential source in 
Matamoros. During the course of that activity, they were 
surrounded by a well-known trafficker by the name of Osiel 
Cardenas and about 15 of his associates.
    Now, each of these associates, one of whom, by the way, was 
brandishing a gold-plated, I am told, automatic assault 
weapon--each of these associates were identified as either 
municipal or state police officers. And it was only due to the 
resourcefulness and the quick thinking of those two agents that 
they were able to escape from that incident unharmed. Now, that 
incident, I think, serves to very vividly highlight the 
vulnerability of DEA and FBI agents working in Mexico day in 
and day out, very dedicated special agents, I might add.
    Now, in addition to the police firings that I described 
earlier, there has been one judicial effort to fight corruption 
in the judiciary. On January 11 of this year, there was a 
Mexican federal judge who actually issued an arrest warrant for 
a magistrate who erroneously or wronglyfreed a methamphetamine 
trafficker, Adan Amezcua. But in direct contradiction to that incident, 
however, there was a Mexican court, on February 4 of this year, who 
freed an Amezcua associate, Jaime Ladino, whose extradition had been 
requested by the United States.
    Now, there has been a treaty in effect since 1978, but as 
Senator Feinstein pointed out, there have been no extradition 
requests actually signed or granted until 1996. Consistent with 
the pattern, in 1999 no major drug traffickers were extradited 
from Mexico to the United States. They did extradite 10 
fugitives on narcotics or money laundering charges. Eight of 
those were U.S. citizens and two were Mexican citizens.
    So, in conclusion, I would say that we all recognize, I 
think, that Mexico is a country of great strategic importance 
to the United States. Counter-narcotics is one of the critical 
aspects of our relationship with Mexico, but the effectiveness 
of the national and our bilateral efforts against drug 
organizations depends, I believe, on demonstrable progress in 
the area of extradition, in the area of disrupting and 
dismantling major trafficking organizations.
    And I would point that that includes on their own 
apprehending, prosecuting, indicting, convicting and 
imprisoning major drug traffickers. It includes exposing and 
prosecuting individuals and businesses that are involved in 
providing support networks to these traffickers, such as front 
companies, security, transportation, communication companies, 
and the like.
    And I really believe that the command structure of the 
Mexican attorney general's office is genuinely committed to 
trying to do those things. So it is vital that DEA and other 
U.S. Government agencies continue to engage, continue to 
support the government of Mexico in their efforts and in our 
efforts. And in turn, I hope that the rest of the government of 
Mexico will provide adequate investigative manpower, financial 
resources, equipment, things of that sort that are necessary 
for them to make progress in this bilateral law enforcement 
effort.
    I want to thank you again for your support, and thank you 
for the opportunity. I will be happy to try to answer any 
questions that you might have.
    [The prepared statement of Mr. Marshall follows:]

    [GRAPHIC] [TIFF OMITTED] T7601A.007
    
    [GRAPHIC] [TIFF OMITTED] T7601A.008
    
    [GRAPHIC] [TIFF OMITTED] T7601A.009
    
    [GRAPHIC] [TIFF OMITTED] T7601A.010
    
    [GRAPHIC] [TIFF OMITTED] T7601A.011
    
    [GRAPHIC] [TIFF OMITTED] T7601A.012
    
    [GRAPHIC] [TIFF OMITTED] T7601A.013
    
    [GRAPHIC] [TIFF OMITTED] T7601A.014
    
    [GRAPHIC] [TIFF OMITTED] T7601A.015
    
    [GRAPHIC] [TIFF OMITTED] T7601A.016
    
    [GRAPHIC] [TIFF OMITTED] T7601A.017
    
    [GRAPHIC] [TIFF OMITTED] T7601A.018
    
    [GRAPHIC] [TIFF OMITTED] T7601A.019
    
    [GRAPHIC] [TIFF OMITTED] T7601A.020
    
    [GRAPHIC] [TIFF OMITTED] T7601A.021
    
    [GRAPHIC] [TIFF OMITTED] T7601A.022
    
    [GRAPHIC] [TIFF OMITTED] T7601A.023
    
    [GRAPHIC] [TIFF OMITTED] T7601A.024
    
    Senator Grassley. We will have 5 minutes for each person, 
and then we can have more than one round if there is interest 
of the caucus to do that.
    First of all, some basic things. Mr. Beers has already said 
that he thinks the certification process is a useful tool. Mr. 
Marshall, would you say that it is a useful tool?
    Mr. Marshall. Yes, it is. In my opinion, it is a useful 
tool.
    Senator Grassley. Okay, then three questions that would 
make some reference to statements from the report. The extent 
to which the certification process is taken seriously--this 
report says that the certification process is useful in forcing 
corruption to the surface and it is useful in efforts to combat 
corruption. It also says that the certification process has 
been a powerful foreign policy tool. And the report says that 
the certification process may be uncomfortable, but it is a 
healthy process.
    Mr. Beers, would you agree with what the report says on 
those three very fundamental questions?
    Mr. Beers. Yes, sir.
    Senator Grassley. Is it your view that the administration 
as a whole shares these views and takes the certification 
process seriously?
    Mr. Beers. Overall, I believe that is true, sir, but I am 
sure you can find people within the administration who would be 
critical of aspects of it or the process as a whole.
    Senator Grassley. Regardless of some disagreement, as you 
say, I might be able to point out, based upon what you have 
told me from your own point of view, could you explain why the 
majors list has been perpetually late?
    Mr. Beers. Sir, having participated in this now for several 
years, I can only say that the discussions that occur within 
the administration over the list, which begin with plenty of 
time, one would think, to complete them, have certainly under 
my tenure--I can't speak before that--ended up in issues being 
surfaced and discussed at the most senior levels, and 
disagreements over judgments one way or the other leading to it 
being late. I regret that that is the case, sir, but it is.
    Senator Grassley. Let me emphasize that and say that it has 
never been on time.
    Mr. Beers. I am aware of that sir, painfully.
    Senator Grassley. How much heroin or opium gum transits 
Iran?
    Mr. Beers. Sir, we don't--at least I am not aware of a 
figure of how much specifically transits Iran, but I can ask 
the intelligence community, unless you know that, Donnie.
    Mr. Marshall. Well, no, I don't have that number right 
offhand. I do know that southwest Asia heroin constitutes,I 
believe, something on the order of 12 to 14 percent of the U.S. market. 
I will try to get that number and submit it for the record.
    Senator Grassley. Mr. Beers, did you recommend removing 
Iran from the majors list in 1998?
    Mr. Beers. Sir, I am being careful here. This is a 
presidential decision and I don't want to talk about individual 
participants, but it was a consensus recommendation to remove 
Iran from the majors list.
    Senator Grassley. Based on earlier decisions to remove 
Iran, were you involved in the decision not to put it on last 
November's list?
    Mr. Beers. This past year?
    Senator Grassley. Yes.
    Mr. Beers. Yes, sir.
    Senator Grassley. You made that decision without knowing 
how much heroin transits Iran?
    Mr. Beers. Sir, the amount of heroin that transits Iran 
would not be the relevant figure for us. The relevant figure 
for us would be the amount of heroin that transits Iran and 
comes to the United States. And with respect to that issue, we 
have Mr. Marshall's agency's signature program which can 
distinguish between--Donnie, correct me if I am wrong--between 
Afghan heroin, Burmese heroin, and heroin from Mexico or 
Colombia.
    The figure that Mr. Marshall quoted, which is 12 percent--I 
thought it was actually a little lower, but then what portion 
of that actually comes through Iran? At those points, our 
degree of ability to determine precisely that amount is not 
highly precise. But I think it is fair to say that the 
understanding is that those drugs from southwest Asia which 
come to the United States are more likely to come through 
Pakistan rather than Iran or the northern tier.
    But beyond that, Donnie, I don't think we have the degree 
of specificity precisely as to what that----
    Senator Grassley. How much southwest Asian heroin comes to 
the United States?
    Mr. Beers. Mr. Marshall quoted 12 percent. I thought that 
the last number that I had was 5 percent, but that is why we 
need to give you the precise number.
    Senator Grassley. Well, it gets to a definition of 
``significant.'' There are some estimates of a metric ton 
coming to the United States. Is a metric ton of heroin out of a 
market of 15 metric tons insignificant?
    Mr. Beers. No, sir. It is significant. I judge it to be 
significant.
    Senator Grassley. Mr. Marshall, what does the DEA currently 
know about opium and heroin production in North Korea?
    Mr. Marshall. I will have to look up particularly the opium 
and heroin production. It is my impression from what I know 
about it that there is not a great deal of opium and heroin 
production. It is my impression that methamphetamine precursor 
chemicals are the predominant problem in North Korea. If I may 
please submit that for the record, I will look it up and be 
sure that my recollection is correct on that.
    Senator Grassley. Well, is the DEA dependent upon the State 
Department and intelligence resources for information on that 
point, in that you aren't in a position to give detailed 
information from your own sources?
    Mr. Marshall. Well, we have information from sources in 
that general part of the world. We have an office in Seoul, 
South Korea. We do not have an office in North Korea, so we 
have to go kind of a roundabout way.
    Senator Grassley. So you are dependent upon the State 
Department, then?
    Mr. Marshall. We are dependent on the State Department and 
perhaps other surrounding countries where we can get whatever 
information is available to come out of North Korea, yes.
    Senator Grassley. Well, okay. Let's go back to Mr. Beers 
and see how long have there been reports of drug trafficking 
out of North Korea.
    Mr. Beers. Certainly, as long as I have been in my current 
position, sir, but I believe it goes back some time before 
that.
    Senator Grassley. How many North Korean diplomats and 
officials have been arrested in the last several years 
internationally for any kind of drug smuggling, but 
particularly for heroin?
    Mr. Beers. Sir, I will have to get you that figure. I don't 
know that, don't have that in my information.
    Senator Grassley. I will stop there because I want to keep 
on time.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Marshall, do you agree that extradition is a hallmark 
of cooperation?
    Mr. Marshall. Yes, I do, and extradition is a very 
important tool. The reason I believe that is because I sort of 
lived through that problem when we were dealing with the 
extradition issues out of Colombia and it proved to be a very 
valuable tool back in the mid-1980s. I was involved in the very 
first extradition, or expulsion at that time with extraditions 
to follow, and that was Carlos Leider.
    And when we began returning those Colombian criminals, the 
Medellin cartel people, to justice in the United States, that 
was really the thing that they feared most, Senator. Actually, 
the expulsion of Carlos Leider was the beginning of the end for 
the Medellin cartel, and it has worked well in Southeast Asia, 
I might add. Operation Tiger Trap from several years ago--we 
extradited a number of heroin fugitives, and the disruption 
that that caused along with a few other market forces, which we 
were lucky enough to have several things coincide, but the 
extradition played a significant role in reducing southeast 
Asia heroin from something like a 65- or 70-percent market 
share in the United States down to its present level of 
virtually not existing in the United States.
    Senator Feinstein. Thank you very much. It is my 
understanding that the Mexican supreme court will soon release 
a much-delayed ruling in the case of Arturo Paez Martinez, and 
that ruling may well prohibit any future extradition of Mexican 
nationals to this country, which would give almost carte 
blanche to the cartel leadership to continue to operate with 
impunity and, even if they are in Mexican jails, to direct 
their operations from within the Mexican jails.
    Should that happen, what would be your view of the success 
of a relationship that could deter Mexican cartel activity?
    Mr. Marshall. Well, I think that an unfavorable ruling 
would just really render a bad situation much, much worse. As 
you point out, as long as these traffickers--even if theyare in 
the jails down there, they are in that general location. They are in 
that country, they are free to communicate with their drug 
organizations, they are free to continue some degree of intimidation, 
bribery activities, that sort of stuff, essentially to run drug 
operations from their jail cells.
    We saw that intimidation level back in the days of 
Colombia. That was very much at work then, and the reason that 
Colombian extraditions were so successful and the reason that I 
think Mexican extraditions would be successful is if you get a 
dozen or so of those key figures out of their own sphere of 
influence, so to speak, where they can't run their operations, 
where they can't bribe and intimidate, than that gives, I 
think, the hope of breaking the cycle of violence and bribery 
and corruption and intimidation. It gives the authorities, the 
good people in the Mexican attorney general's office, I think, 
a little bit more chance of success in their efforts. So I 
think it is very important.
    Senator Feinstein. Along those lines, because I happen to 
agree with you--I happen to think it is number one for any 
country in terms of assessing a level of cooperation--there are 
a number of cases that I am following. I mentioned Arturo Paez 
Martinez. They are all on appeal--Jaime Aguilar Castellum, 
Miguel Angel Martinez, Francisco Rafael Camarena Macias, Luis 
Amezcua-Contreras, Jesus Amezcua-Contreras, and Jesus Emilio 
Rivera-Pinon. These cases are all on appeal. The Jesus Emilio 
Rivera-Pinon case has been on appeal since June of 1995.
    Do you have any specific information about why these cases 
remain pending or how soon they will be resolved?
    Mr. Marshall. No, unfortunately I don't, Senator. I have 
talked about that very issue with the Mexican attorney general 
and unfortunately that is under almost the complete control of 
the Mexican courts.
    Senator Feinstein. Last year, I pressed for implementation 
of a U.S.-Mexico maritime agreement which would assist both 
countries in the pursuit of illegal narcotics by allowing quick 
refueling stops while in hot pursuit of a drug boat or by joint 
operations to arrest and prosecute traffickers found on the 
high seas. I am told that there is no such agreement in place 
today, although informal cooperation has resulted in the 
seizures that I have mentioned, all of which are very 
substantial seizures of several tons each.
    Why has such an agreement not been reached, Mr. Beers?
    Mr. Beers. We have had discussions with the Mexican 
government about such an agreement, and we have focused our 
primary effort on the actual cooperation and that is basically 
what has happened. Our Coast Guard officials have been working 
over the course of the year, and I think have worked out an 
effective working relationship with the Mexican Navy and the 
Mexican government.
    I would note that we do not have a maritime agreement with 
Canada. We have a working relationship with them of the first 
order.
    Senator Feinstein. So you are not pursuing an official 
agreement?
    Mr. Beers. No. We just don't have it yet, and we have 
focused primarily on the issue specifically of day-to-day 
cooperation. That has been Mexico's desire to focus first on 
that and build on that foundation.
    Senator Feinstein. Well, you might want to also consider 
getting an agreement with Canada because if we tighten up at 
our ports, stuff is going to come into Canada as well. It might 
be nice to be ahead of the curve for once.
    Mr. Beers. I understand, but the point the Coast Guard 
makes to me is--and they should speak for themselves--the 
relationship with Canada is of such a sort that they don't feel 
they need an agreement. And I am not saying that that 
necessarily applies to Mexico, but we are definitely trying to 
build the elements of cooperation so that we have the basis for 
the best possible agreement.
    Senator Feinstein. One quick question of Mr. Marshall. You 
told us about the problem at Matamoros where more than a dozen 
federal police, all armed, surrounded two of your men.
    Mr. Marshall. State and municipal police, Senator.
    Senator Feinstein. Pardon me. State and municipal police 
surrounded two of your men. What has been done by the Mexican 
government to see that that doesn't happen again?
    Mr. Marshall. Well, there is some indication that the 
attorney general's office is investigating that and trying to 
locate the main player in that, Osiel Cardenas. They have not 
yet located him. They have told us that they are doing an 
investigation. We are, in fact, trying to cooperate with them 
in that investigation.
    Senator Feinstein. Was the implication clearly that the 
state police were on the payroll of the drug cartel leader?
    Mr. Marshall. Yes, that was the clear implication, sure.
    Senator Feinstein. And so would your department's 
expectation be that there be action to apprehend those people 
who well could have killed your two people?
    Mr. Marshall. Yes, that would be our expectation, yes.
    Senator Feinstein. It will be interesting to see what 
happens.
    Thank you very much. Thanks, Mr. Chairman.
    Senator Grassley. Thank you.
    Senator Coverdell.
    Senator Coverdell. The President has certified Mexico full 
cooperation. As I indicated in my opening statement, there are 
a lot of incongruities here. I will pose the question to both 
of you because there will be a congressional reaction to this 
ultimately.
    Give me your explanation of why the certification occurred 
and why it is the correct thing to do, in light of the 
testimony--lack of extradition, the impunity with which some of 
these cartels operate in the country, corruption in the 
judiciary. You both alluded to it.
    Step back from it and, in a broader picture, what is your 
assessment of full cooperation? What constitutes full 
cooperation in your mind, Randy?
    Mr. Beers. Sir, as I have indicated in earlier testimony, 
we have looked at the phrase ``full cooperation,'' and in an 
attempt to make the most clear and deliberate decision on this 
process we interpret the phrase ``full cooperation'' not to 
mean perfect cooperation, that that is a standard that no 
country is able to effect, in some cases only by inadvertence.
    And so we have looked at a basket or a range of activities 
regarding which cooperation would be an important factor and 
tried to determine whether or not thatcooperation constitutes a 
serious and significant effort on the part of the government to work 
effectively with the United States or, as the law says, to comply with 
the 1988 Vienna Convention. That is the basis on which we come to each 
and every decision that we make about countries on the majors list.
    With respect to the decision on Mexico, in many ways 
Senator Feinstein, I think, has fairly laid out the good, the 
successful, the areas of cooperation, and has fairly noted 
areas in which we have not had full cooperation or perfect 
cooperation.
    With respect to the issue of extradition, I don't think 
there is anybody in this Government who doesn't want an 
extradition process that works with the government of Mexico. 
Where we are now is largely a system in which the government as 
a whole, the executive, has made a decision that they are 
prepared to fully support extradition. And it is, as Senator 
Feinstein correctly said, in the courts; that is, we are 
waiting for a test case, if you will, in the courts.
    I share her concern--I think we all do--if it goes the 
wrong way, but this is also a case that the Mexican government, 
in selecting which case to take to the supreme court, has 
sought to find the case that they thought they had the best 
chance of winning. That remains to be seen.
    My main point here is that extradition is not an issue in 
which the government hasn't been cooperating with us. It is an 
issue that the due process of the Mexican system has left 
within the domain of the courts. The Senator correctly 
indicated that the seizure statistics this year and the 
eradication statistics this year are all up, and that progress 
is clearly being made and that the effort, I think, is 
significant. That is certainly something that we would rate in 
the area of forward movement.
    With respect to the issue of combatting criminal 
organizations, I think again that the Senator's remarks are 
correct. Donnie Marshall has said it; they haven't taken down 
fully a major organization in that country. They have 
successfully disrupted the Quintana Roo segment of the 
Carrillo-Fuentes organization, but even there they haven't 
arrested the leadership.
    This is an area of serious concern on our part, but their 
failure to actually successfully take down the organization is 
not what we are measuring. We are measuring whether they have 
been trying, whether they are judged to be fully cooperating. 
And where we have come down as a result of that, I think, is 
that at the level of senior level of the government there is a 
serious commitment and there are serious actions on the part of 
the government that we judge to be in the nature of fully 
cooperating.
    That is how the administration has come to make this 
decision, and I can appreciate that others may not necessarily 
agree with that decision process, but that is how the 
administration made the decision.
    Senator Coverdell. Mr. Marshall.
    Mr. Marshall. Senator, I have to confine my comments to my 
area of expertise, and that is law enforcement. As you have 
heard from Mr. Beers, there are certainly other elements that 
go into certification, but I think what I would be looking for 
in this area would be what has been their progress toward the 
benchmarks that were laid out. I would look at progress in 
terms of extradition, in terms of arresting and prosecuting the 
leadership of the organizations, in terms of general 
cooperative counter-narcotics programs, and their efforts to 
clean up corruption.
    Certainly, I have pointed out some progress that they have 
made in each of those areas. However, when you get right down 
to the bottom line, there have been no major extraditions. 
There have been no major organizations that have been disrupted 
or dismantled, in spite of their well-placed intentions, and 
they should get credit for that, to clean up the corruption 
problems. There are still massive problems there. So those are 
the kinds of things that I would look at from a law enforcement 
perspective.
    Senator Coverdell. A quick question to each of you. Time is 
up. These major cartels, are their leaders under pressure 
sufficient that they are in permanent hiding, or do we 
generally know where they are? I mean, are they figures that if 
they were in the United States they could be apprehended or 
not?
    Mr. Marshall. Well, with regard to your last question----
    Senator Coverdell. The Fuentes and the Felixes.
    Mr. Marshall. If they were in the United States, I think we 
would have a much greater expectation of apprehending them in 
the United States. Now, with regard to what is their situation, 
I think it varies with the individual traffickers.
    In many cases, we have information from time to time and we 
know general areas in which they operate. We hear of sightings. 
We hear of them traveling in large convoys often, as in the 
Cardenas situation in Matamoros, with police escorts and 
protection and that sort of stuff. I mean, they don't any 
longer go out wide open and, you know, give press interviews 
and that sort of stuff like they did a few years ago.
    So I have to believe that there has been some degree of 
greater pressure by the Mexican authorities to drive them a 
little bit further underground. But certainly when you look at 
a person with the magnitude of the operations that they have, 
were that level of violator in the United States, I think that 
it would be fairly quickly that we would be able to locate 
them.
    Senator Coverdell. Mr. Beers, do you want to comment on 
that?
    Mr. Beers. I concur with what Donnie said. I mean, I think 
that the pressure has increased, but it is certainly not a 
perfect system yet. The fact that one of the leaders died under 
the knife trying to change his face is an indication of the 
pressure, but it is not a perfect system by any means.
    Senator Coverdell. Thank you.
    Senator Grassley. Senator Sessions.
    Senator Sessions. Thank you. I think you said, Mr. Beers, 
failure to take down organizations is not what we are 
measuring. It is well that it is not because you wouldn't be 
able to certify them. To me, that is the number one test of 
whether any country is serious about its effort against drugs, 
not whether they extradite. They don't need to extradite 
anybody if they put them in jail themselves. If they take over 
these farms, if they eliminate the vehicles and transport 
systems, and arrest and sentence people and do that kind of 
thing, that is a grass-roots, tough law enforcement job.
    And I know law enforcement is never perfect around the 
world. I won't reveal how many sheriffs in Georgia were 
convicted a few years ago when I was United States Attorney, 
but it was over 20.
    Senator Coverdell. It was a lot.
    Senator Sessions. I think it was 30, but most of those were 
smaller acts of corruption, frankly. But there was drug 
corruption even within my State of Alabama. As a Federal 
prosecutor, I have seen it, and it is easy to happen. You 
cannot expect there won't be some corruption. The question is, 
is there a response to it and are we creating a circumstance 
when it is plainly obvious to everyone who has their eyes open 
that large illegal organizations are continuing uncontrolled.
    Mr. Marshall, in the relief package, the assistance that 
the President has proposed to Colombia, I notice and have heard 
some concern that there is no money in that for the Colombian 
police. Some people that I respect have told me the Colombian 
police by and large have been courageous, and some of the best 
support we have gotten in the war against drugs is from the 
Colombian police department.
    Have you had occasion to express an opinion within the 
administration on that? Are you concerned about it, and would 
you share with us your views?
    Mr. Marshall. Yes. Certainly, first of all I would like to 
echo your statements about the Colombian National Police. Under 
the leadership of General Serrano, that organization has paid a 
tremendously high price. They have faced the problems down 
there--assassinations, bribes, intimidation, that sort of 
stuff--they have faced it with the utmost courage, and the 
majority of the men and women of that organization are nothing 
short of heroic.
    With regard to Plan Colombia, I support the general 
approach of Plan Colombia. The idea is to deal with the 
insurgent groups, the FARC, the ELN, the paramilitaries, who 
control certain areas of Colombia and prevent the national 
police from getting into those areas to effectively do their 
job. So I endorse that concept. We need to give that aid so 
that they can root out those insurgent groups.
    Now, we have had quite a bit of discussion within the 
administration about the mix of that package, and it is my 
understanding that there are some proposed changes there that 
would increase DEA and Justice's share to some degree. Now, it 
is my understanding that there, by one version, some $17 
million that may go to DEA programs to support the Colombian 
National Police, things such as Operation Copperhead which 
supports their communications intercept, things such as 
Breakthrough which assesses the amount of traffic coming out of 
there, a fusion to integrate intelligence and investigative 
information between the United States and Colombia. We need to 
do those things.
    Senator Sessions. Well, thank you for sharing that. If our 
primary goal in this effort is to reduce drugs, I think we need 
to make sure that the police are not being cut out of it 
entirely.
    I frankly believe, and have said during one of our hearings 
that Colombia has a responsibility to defeat the insurgents, 
and it is astounding to me that they have granted a safe harbor 
within the nation of Colombia the size of Vermont, I 
understand. Are there drug labs operating within that area, Mr. 
Marshall?
    Mr. Marshall. Yes, there is some cultivation there and 
there is some drug----
    Senator Sessions. I think we have encouraged them to create 
this safe zone. Isn't it true that no law enforcement or army 
from the nation of Colombia can even go in there to break up 
the labs?
    Mr. Marshall. That is my understanding at the present time, 
yes.
    Senator Sessions. I just think that is astounding. I think 
it would be hard to understand how this goes on. I am troubled 
about Colombia. I really care about that nation, and I have 
worked with Colombian police officers as witnesses who have 
feared for their families when they have come up to the United 
States to testify in drug cases, and they are courageous. A 
young guy told me he was doing what he believed was right and 
he wasn't worried about it, and I was impressed.
    With regard to extradition from Mexico, I think it is fair 
to say there really has been no real extradition from Mexico 
ever. I remember as a prosecutor we were going to go to Mexico 
to pick up an individual who was indicted in Mobile who was 
involved in the Kiki Camarena murder, at least that 
organization was, supposedly. There had been a lot of pressure 
from the United States, and within 10 days of the pickup date, 
he was reported to have escaped. Hardly anybody ever gets 
extradited.
    You noted that 10 were extradited and 8 were U.S. citizens. 
So we had two extraditions. Of those two, one was extradited 
because he had been in jail in the United States and escaped. 
The other one had been involved in the murder of a Border 
Patrol agent. Now, if they want to extradite somebody for 
murdering a lawful American Border Patrol agent, presumably a 
crime committed in the United States----
    Mr. Marshall. Yes, it was.
    Senator Sessions  [continuing]. Then I mean that is almost 
an act of war, as far as I am concerned. We have every right to 
expect a nation like Mexico will act to defend the safety of 
our officers. And apparently they did so in this instance, but 
no real indigenous drug traffickers have been extradited. This 
is a myth. This has been talked about for 20 years, and we are 
not having extraditions. We ought not to even discuss it until 
we see bodies start coming across the border. It is not a sign 
of success.
    So my concern is how do we support Mexico in an effort that 
is their effort to eliminate the increasing power and 
corruption of drug organizations in that great country. The 
people of Mexico do not favor drug dealers; they do not. I have 
met with their parliament members for the last three 
consecutive years, and I don't believe the members of the 
Mexican parliament do.
    But we are confused in our thinking, and a lot of people 
don't realize how tough the battle is for the Mexican 
leadership. My only concern is, as a lawyer, certification 
ought to mean what it says. If all we are doing is going 
through a game in which we are not being honest about what 
fully cooperating means and we are conjuring up acts to justify 
our conclusion that is already made, then I don't want to be a 
part of it. I would just as soon not have it.
    Thank you, Mr. Chairman.
    Senator Grassley. Thank you.
    Before I continue my questioning with Mr. Beers, I want to 
digress just a minute. Because methamphetamine is such a 
problem in my State, I wanted to ask you, Mr. Marshall, if you 
are running out of funds to support meth lab cleanups byState 
law enforcement agencies. Is that true?
    Mr. Marshall. That is true, Senator. Actually, we have run 
out of the funding for that activity about a week ago.
    Senator Grassley. And that is for this fiscal year?
    Mr. Marshall. Yes, sir, that is for fiscal year 2001 that 
we are in. Now, it is my understanding that there is money in 
the COPS program that is earmarked for methamphetamine 
training, cleanup, investigations, that sort of stuff. It is 
earmarked for, I believe, 14 specific States. But regard to the 
remainder of the States, DEA unfortunately does not have the 
money to continue the activity.
    Senator Grassley. What do you think is needed for that to 
continue this fiscal year?
    Mr. Marshall. I am sorry?
    Senator Grassley. How much money do you think is needed, 
then, to finish the fiscal year?
    Mr. Marshall. We are projecting something on the order of 
an $8 to $10 million shortfall. And if you would like, I will 
get you an assessment of that and get you the exact number.
    Senator Grassley. Please do.
    Before I ask more specific questions, Mr. Beers, I kind of 
want to make some sort of a summary of my first 5 minutes of 
questioning with you. It seems to me that the administration 
has taken Iran off the majors list on the grounds that it is 
not a significant transit route for heroin, even though the 
administration can't say what the flow is.
    The administration says that countries like Iran should 
come off the list because significant amounts of southwest 
Asian heroin aren't coming to the United States. But if you 
cannot say how much is coming through Iran and that southwest 
Asian heroin is a significant part of the U.S. market, it seems 
strange that Iran then would come off the list. It is 
disappointing in light of how serious we are supposed to take 
certification.
    Does my summation, as ironic as it sounds, seem legitimate? 
I mean, that is the way I view the first round of questioning 
that we have had.
    Mr. Beers. Sir, I think that the difference that I would 
have with your conclusion is the point that I tried to make 
earlier, which is in terms of trafficking routes that come to 
the United States, we see more coming through Pakistan to the 
United States than through Iran. Iranian heroin seems to flow 
in the direction of Turkey and onto the European market.
    So it transits Turkey and goes to a western European 
market, whereas Pakistan heroin, while it also feeds the 
European market, also appears to come through Nigeria to the 
United States. And as a result of that, while you are correct 
in saying we don't have the precise figures, we are still 
expected to draw some conclusions from the information and that 
is the conclusion that we have drawn from that information, 
sir.
    Senator Grassley. But you draw the conclusion without 
knowing what is transiting Iran, don't you?
    Mr. Beers. Sir, our transit figures are all estimates on a 
global basis. We have some greater precision in the Western 
Hemisphere because our information provided by DEA and the 
intelligence community is far better. With respect to southwest 
Asia, it is not as good, and with respect to Iran, it is even 
less good because of the lack of contact that we have from the 
intelligence perspective and the law enforcement perspective 
with Iranian officials. But what we know is what I am telling 
you the basis of our decision is.
    Senator Grassley. Going on with North Korea where I left 
off with you, when did the State Department first report on 
North Korea's drug production in the Strategy Report?
    Mr. Beers. Sir, I will have to get back to you on that. I 
just don't have that.
    Senator Grassley. Was it included because of congressional 
action?
    Mr. Beers. Sir, I am sorry I don't know the answer to that 
question.
    Senator Grassley. When was the last aerial survey of North 
Korea opium production made?
    Mr. Beers. Sir, to the best of my knowledge, we have never 
had a successful aerial survey of North Korea. We have had 
efforts at such a survey, two of which I am aware of, one of 
which I specifically requested over the course of the last 
year. The number of----
    Senator Grassley. Was a survey made last year?
    Mr. Beers. There was an attempt at one, sir, and it was 
deemed unsuccessful for the failure to have enough pictures to 
be considered to be a valid sample of North Korean opium poppy 
likely cultivation sites. There are some problems associated 
with North Korean sampling. One is the weather, and two is the 
competition.
    The competition is with respect to concerns on the part of 
the Department of Defense about North Korean military 
intentions toward South Korea, and on the part of both the 
Defense and State Departments and the whole U.S. Government on 
the course of North Korea's possible efforts to obtain weapons 
of mass destruction.
    Senator Grassley. Now, if this survey for 1999 reporting on 
1998 indicates that North Korea is not on the majors list but 
will be the subject of greater attention to determine its role 
in illegal drug production and transiting, and if you attempted 
to get an aerial survey and didn't get one, just how is the 
administration monitoring closely opium production to make a 
determination if it should be in the report?
    Mr. Beers. Sir, the effort is to get a satisfactory survey 
of the areas of potential opium production. Given the geography 
of North Korea and the expectation that if there is a crop, it 
is a single crop in a calendar year, the survey effort has to 
be done at a particular time of year because the survey looks 
for the crop at its height when it is most visible to overhead.
    We therefore look in a specific time frame of the year, not 
a day or a week, but a several-month period in which we would 
expect those crops would come to final bloom, and we have 
sought to do that. We sought to do it last year. We will try to 
do it again this year, but until we have that we can't tell you 
with confidence that they do or do not have such a crop. And we 
have not put a country on the majors list without having the 
benefit of that confirmation from imagery with respect to 
cultivation. So, that is where we are now and that is what we 
are seeking to do.
    That is one part of our effort to monitor the activities in 
North Korea. In addition to that, the intelligence community 
and the law enforcement communityhave been asked to bring to 
bear information that is derived from other sources, and we have 
received regular reports on that and we have had some lengthy analysis 
done over the course of the last year in order to determine just what 
is happening there, in part to be responsive to your known concerns 
about that, but also because we are concerned as well.
    Senator Grassley. I am going to ask Senator Sessions to not 
only take his turn now, but then also when you are done to 
adjourn the meeting.
    I want to take this opportunity to thank you folks for your 
attendance here and your participation, and I will have some 
questions to submit for answer in writing.
    [The questions of Senator Grassley follow:]

    [GRAPHIC] [TIFF OMITTED] T7601A.025
    
    [GRAPHIC] [TIFF OMITTED] T7601A.026
    
    [GRAPHIC] [TIFF OMITTED] T7601A.027
    
    [GRAPHIC] [TIFF OMITTED] T7601A.028
    
    [GRAPHIC] [TIFF OMITTED] T7601A.029
    
    [GRAPHIC] [TIFF OMITTED] T7601A.030
    
    [GRAPHIC] [TIFF OMITTED] T7601A.031
    
    [GRAPHIC] [TIFF OMITTED] T7601A.032
    
    [GRAPHIC] [TIFF OMITTED] T7601A.033
    
    [GRAPHIC] [TIFF OMITTED] T7601A.034
    
    Senator Sessions [presiding]. Thank you, Mr. Chairman, for 
your consistent and strong leadership on this important issue. 
I know you have taken the lead in your State of Iowa and you 
travel all over the State having meetings with citizens about 
the drug problem. I know it is a deep concern of yours, and it 
is translated into public policy here.
    Let me ask, Mr. Beers, the certification of Colombia this 
year, will that be under the national security exception?
    Mr. Beers. It was full certification this year.
    Senator Sessions. Full certification?
    Mr. Beers. Yes, sir.
    Senator Sessions. Not utilizing the national security 
exception?
    Mr. Beers. No, sir, there was not a national interest 
waiver.
    Senator Sessions. Well, didn't we have a major increase in 
the amount of drugs shipped from Colombia last year, and 
production of coca in Colombia last year?
    Mr. Beers. Yes, sir, we do.
    Senator Sessions. How do we show that as an improvement?
    Mr. Beers. We had a major effort on the part of the 
Colombian government to eradicate as much coca as possible. In 
part, what has happened in Colombia with respect to cultivation 
is that the traffickers have been able to move more quickly and 
more expansively than the government's efforts to eradicate 
that. So in that area, you are correct, but they have made a 
significant effort.
    With respect to the issue of trafficking, Mr. Marshall is 
in a position to comment about a very significant law 
enforcement activity which was only one of several that 
occurred in Colombia called Operation Millennium. And in 
addition to that, we have seen a major effort on the part of 
the Colombian government to pull together a strategy and effect 
operations in the field around the country to deal with drug 
trafficking.
    But let me let Mr. Marshall comment specifically on 
Millennium, which we think was a very significant activity.
    Senator Sessions. Please.
    Mr. Marshall. Yes, Mr. Beers is correct about Operation 
Millennium, and that was a partnership operation with the 
Colombian National Police. And certainly we have already spoken 
of how effective the Colombian National Police are.
    What we did for the first time was we had a Colombian 
investigation essentially at the request of the United States. 
We identified through our investigations here in the United 
States a group that was operating in Colombia and supplying 
many of these cells that I spoke of in my opening statement 
into the United States. And what we did was we shared all of 
the information that we had with the Colombian National Police.
    They then took that information in a joint operation, both 
in Colombia and back and forth between Colombia and the United 
States. And we built a case against 34 of the top drug 
traffickers in Colombia, including Fabio Ochoa and Alejandro 
Bernal Madrigal, two of the absolute biggest traffickers 
operating in the world today. What was significant about this 
is that there was not a----
    Senator Sessions. Well, Ochoa has been recognized as that 
for 20 years.
    Mr. Marshall. Oh, yes, many, many years, he and his family.
    Mr. Beers. He has been in and out of jail.
    Mr. Marshall. What was most significant about this is that 
there was not a parallel Colombian investigation with the 
intention of Colombian prosecution. This was done solely in 
order to extradite these 34 traffickers back to the United 
States and, as I mentioned before, get them out of their own 
sphere of influence and into American jails, which is the thing 
that they fear most.
    Now, if that process comes to fruition, which I am 
optimistic it will, and if we are successful in gettingthose 34 
back into U.S. jails, I have to predict that that would be probably the 
single most important and effective thing that we have done in the area 
of drug enforcement in many years.
    Mr. Beers. And the Colombians have extradited two last year 
already, indicating that they don't have any legal judicial 
impediments to carrying through on the constitutional amendment 
that they passed the year before in order to effect 
extradition. That is, I think, a significant demonstration of 
cooperation and government will.
    Senator Sessions. Well, that would be dramatic, and I would 
just say you better hope they don't escape before the time 
comes along.
    Mr. Marshall. Well, you mentioned that, and frankly we are 
concerned that this be an expedited or a timely process so 
something like that does not happen.
    Senator Sessions. Well, that, and just basically some way, 
somehow, the system has consistently not produced the 
extraditions that have been promised for many, many years.
    Mr. Beers, why do we not think in terms of certifying 
Mexico under the national security exception? How can we say 
that there is any really significant progress there when we 
have got police force threatening the lives of American police 
at the direction of a major drug dealer?
    How can we say that Mexico is really making progress? They 
won't sign a maritime agreement. They are not extraditing 
anyone. The cartels continue to enrich themselves and get more 
entrenched and more powerful. We have a few little things that 
we claim as progress, but in the scheme of things it is 
difficult for me to see how they are real progress. Why don't 
we just do it as a national security exception?
    Mr. Beers. Sir, that is always a possibility in situations 
like this. We judge them to be fully cooperating.
    Senator Sessions. Well, I don't see how that can be 
justified. I was just looking here, Mr. Marshall, at USA Today. 
The Mexican drug dealers are offering a $200,000 bounty on 
United States Federal law enforcement officers' heads for 
murder. It talks about the entrenched Tijuana drug cartel. USA 
Today knows who they are and where they live and what they do.
    Are you concerned about that? Is that a matter that affects 
the security for your agents as they go about doing their work 
both in the United States and in Mexico?
    Mr. Marshall. Absolutely, I am concerned about that, and it 
is one of the major issues that we have in Mexico with our 
operations there.
    Senator Sessions. And when was it, just a few months ago, 
that the chief of their police, Alfredo Delatore, was murdered?
    Mr. Marshall. A few weeks ago, actually, is my 
recollection.
    Senator Sessions. A few weeks ago, and another police chief 
was murdered 6 years ago in Tijuana.
    Mr. Marshall. Yes.
    Senator Sessions. I guess my deep concern is that Mexico's 
very existence as a healthy nation is at stake here. Wouldn't 
you agree, Mr. Beers? If this kind of activity continues, 
business can't afford to invest in Mexico as they would like to 
because they are afraid for their lives or their people's 
lives. Isn't this a threat to the economic growth that Mexico 
is capable of?
    Mr. Beers. Yes, sir, I would agree that it is, and I think 
that the current administration in Mexico would agree with you 
as well. They have come to us and spoken in as dramatic a set 
of terms as you are using now, and they are making their effort 
to deal with that.
    Senator Sessions. Well, we have had some increase in 
seizures, I note. Mr. Marshall, do you have any indication as 
to what percentage of the drugs being imported into this 
country are being seized on the Mexican side?
    Mr. Marshall. Well, certainly, that is all kind of an 
estimate because you don't know----
    Senator Sessions. Well, you have estimates of how much 
comes across the border from Mexico, do you not?
    Mr. Marshall. We do, and we estimate that in the aggregate 
of all the drugs that come in here, on the order of 55 to 60 
percent transit Mexico en route to the U.S.
    Senator Sessions. I see in the USA Today article, 
apparently, 75,000 pounds of cocaine were seized along the 
Mexican border near San Diego; that is 30-some-odd tons. Do you 
know what percentage of the total supply is being seized? I am 
first asking about in Mexico.
    Mr. Marshall. If you look at our total estimate of the 
world supply, I think our current estimate is some 765 metric 
tons of cocaine worldwide. And if there were 75,000--did you 
say pounds?
    Senator Sessions. Yes.
    Mr. Marshall. That would be 35 tons seized in Mexico, so 
that would be 4 percent, by my mental math, of the world 
supply.
    Senator Sessions. Not enough to affect the supply in the 
United States in any significant way, it strikes me.
    Senator Feinstein, who has done such a fine job on this and 
has been steadfast in her concerns about it, noted, I believe, 
there were 6 tons seized of marijuana on the part of the 
maritime agreement. Well, I remember we called cases in Mobile 
the 10-ton case and the 6-ton case. I mean, 6 tons of marijuana 
is insignificant in the world supply.
    Can you say, Mr. Marshall, with confidence that the supply 
of narcotics--I will just say marijuana, cocaine and 
amphetamines--coming into the United States from Mexico has 
been reduced? Would you compare 1997, 1998 and 1999? Are the 
numbers still increasing in quantity coming across the border 
based on DEA surveys?
    Mr. Marshall. I don't see any evidence that those numbers 
have been reduced in the areas of heroin, cocaine and 
marijuana. There have been perhaps some spot shortages 
following operations like Impunity and Millennium and that sort 
of stuff, but they don't really last. There are also some 
indications that we may finally be making a bit of progress in 
the methamphetamine issues coming out of Mexico, things like 
lower purities coming out of the labs, things like a shift from 
methamphetamine to amphetamine, but with regard to the other 
three drugs, no indication that that is having an effect in the 
U.S. market.
    Senator Sessions. Based on our history of 20 years, is it 
fair to say that we are not likely to be able to affect the 
number of drug users in the United States through cooperative 
agreements with Mexico?
    Mr. Marshall. I don't think that we will directly affect 
the number of users in the United States. I think you have to 
count more on the demand side of the equation--education, 
prevention, that sort of stuff.
    Senator Sessions. You left out law enforcement.
    Mr. Marshall. No. I am about to get to that, if I may.
    Senator Sessions. Okay.
    Mr. Marshall. I think where law enforcement fits in there, 
however, is that until you manage through the prevention 
programs to get the number of users down, you have a lot of 
mean, vicious, violent, evil criminals that are pumping this 
stuff into our country, and all the violence and the corruption 
and the intimidation that goes along with it.
    We have to deal with those as a law enforcement, as a 
criminal issue until we can further impact the demand numbers 
downward. And I think that one of the Senators in an opening 
statement pointed out that since 1979, we have reduced the 
number of users in this country. We have to do a better job, 
but in the meantime law enforcement has to be right there to 
take care of and to impact on the criminals that are doing so 
much evil in the country.
    Mr. Beers. Sir, if I might interject, I agree with Mr. 
Marshall's statement. What our overall strategy is is to try at 
each point in the process from cultivation to use to have an 
intervention that is the best that we can put together to try 
to effect a reduction in the overall amount of supply 
available, and then after that process is over also to 
intervene with respect to users to try to get them to stop. It 
is all part of a large package, but I think Mr. Marshall's 
point is correct.
    With respect to the Mexican border, the amount of flow that 
we have seen has been roughly about the same. And if you look 
at the seizures on both sides of the border and if you look at 
the seizures in South America overall, what we have seen 
overall is that that flow to the United States has been to date 
almost impervious to each stage of that effort. And 
unfortunately over that period of time, there is more going to 
the rest of the world.
    Our market to some extent has gone flat. I mean, we can 
talk about the perturbations of use over the last 10 or 20 
years, but the overall amount, by our estimates, has been 
relatively flat over probably the last decade. And where the 
increase on a global basis has occurred has been Europe--this 
is cocaine--and now Latin America. That is why we have gotten 
the attention of governments around the hemisphere of their own 
national interest need to try to deal with this problem.
    It is sad that it has gotten to that point, but that is 
where we are, and that is why we think, to go back to your own 
remarks, sir, that we have a chance to make success as 
governments perceive it as in their own national interest and 
not simply something that the United States is asking them to 
do on behalf of the United States.
    Senator Sessions. Well, I agree. Surely, that will become 
clear to a lot of people. I had occasion recently to be in a 
conference with the drug czar in the United Kingdom, and they 
are all of a sudden becoming worried. As a matter of fact, I 
had some law enforcement people express concern to me about the 
Netherlands. They have marijuana coffee shops where they allow 
that kind of stuff to go on, and it is becoming a transshipment 
point to Europe. With the European Union, once it is in Europe, 
it is pretty well easy to transport.
    Do you think that is a growing concern, Mr. Marshall?
    Mr. Marshall. Absolutely, that is a concern. I have talked 
to a lot of law enforcement officials in Europe and they share 
that assessment and they are quite concerned about it. They are 
very displeased with the situation in the Netherlands.
    Senator Sessions. I am sure the Netherlands thinks they are 
just sophisticated, you know. They have prostitution everywhere 
and drugs everywhere, and they think that makes them more 
sophisticated. But we are going to find out it is not going to 
work. They are not going to be happy with what happens to that 
country when they allow more and more use of drugs. It is not 
going to be good for them and it is not going to be good for 
their reputation.
    Have we taken any steps, Mr. Beers, as part of this process 
to examine whether or not the Netherlands is cooperating 
sufficiently in our efforts?
    Mr. Beers. Yes, sir, we have looked at that, and that will 
be an ongoing area of concern. You are right in raising those 
questions, sir.
    Senator Sessions. I hope that we would look at that.
    Well, this is a real challenge for our country, and I do 
believe we have a responsibility to the world. It would be 
better for the United States and for all nations of the world 
if other markets for cocaine and illegal drugs are not created. 
It is not going to help us if the Colombians begin to focus on 
other countries around the world and create additional markets. 
They will just be stronger. And those nations, many of whom are 
our allies, are going to be damaged by this and it is just not 
good for anybody.
    So I do not mean to suggest we should not be vigilant in 
encouraging nations in this hemisphere particularly to reduce 
their production of illegal narcotics. What I do deeply believe 
is that ultimately there will probably be enough into this 
country to supply the demand that exists here. And if we want 
to deal with our demand, then we need to have a strong public 
relations education campaign. We need to have very strong law 
enforcement at the street level.
    I think it was proven in New York City by Rudy Giuliani 
that if you prosecute smaller crimes on the street, the drug 
dealers and the pan-handlers and the two-bit thieves, you 
cannot begin to break up criminal activities and reduce all 
crime. I have believed that for a long time. There is no doubt 
in my mind that if you want to reduce the amount of drugs used 
in my hometown of Mobile, if you go in there and steadfastly 
break up the virtually open sales of drugs and put those people 
in jail and send a message that users will be prosecuted, you 
will see it go down.
    As a matter of fact, I have seen drug use go down under 
intensive pressure. I just believe we don't need to lose our 
focus from that critical aspect of the war on drugs in a more 
unconnected effort to reduce supply, over which we have such 
little control ultimately. Those are my concerns.
    Thank you for your testimony here again. We will keep the 
record open to allow others to submit questions and any 
comments or supplements that you would like to submit. Mr. 
Beers, do you have anything to add to this?
    Mr. Beers. No, sir, except to thank you for the hearing. We 
regard this as an important opportunity to go beyond the actual 
administration expression of certification to bring it to the 
attention of the Congress and the American people. Thank you.
    Senator Sessions. I would say I am very concerned about 
Colombia. I am not sure what my thinking is at this point, but 
if our assistance could help them preserve the second oldest 
democracy in the Western Hemisphere against a Marxist group of 
drug traffickers, I think we need to be considered what we can 
do to help.
    Mr. Beers. Sir, I think that the proposal that the 
Colombians and the administration have presented to the 
Congress represents the best chance that we will ever have to 
accomplish both your goals and our common goal of dealing with 
drug trafficking as it emanates from South America.
    Senator Sessions. I am not convinced that our position of 
not even endorsing the democratically-elected government of 
Colombia against these Marxist drug traffickers and protectors 
and kidnappers is a good policy. That may not be in your 
bailiwick, but Mr. Pickering testified in this very room, I 
believe, a few weeks ago that we have not even officially 
endorsed the nation of Colombia in their effort.
    We are trying to have peace talks and that sort of thing. 
We are encouraging them to allow large areas of their country 
to be a safe zone. We ought to be encouraging, in my mind, the 
nation of Colombia to defeat these insurgents who have taken 
over 40-plus percent of their country. And until they do so, I 
don't see how we can ever expect Colombia to control production 
if they don't even control their territory. So I think we ought 
to help Colombia, and I just want to be sure that we are doing 
it in the right way.
    Mr. Marshall, do you have any further comments?
    Mr. Marshall. Just a brief comment, Senator. I would like 
to also thank you for your support, and the entire caucus as 
well. As I said earlier, we can't do our jobs without the 
support of Congress, the Senate, this caucus, and the American 
people.
    With regard to your comments about cleaning up our streets 
at the neighborhood level, I agree with your viewpoints on 
that. In addition to the national, international and major 
command and control investigations that we conduct, we have a 
couple of programs that do focus on helping local jurisdictions 
out with those types of crimes. I would be happy to give you or 
your staff a briefing on those programs, if you would like.
    Senator Sessions. I would be delighted to hear that. I 
think cooperative law enforcement is a key step. I believe in 
the task forces; I have seen them work successfully. How do you 
find who the big dealer is in your town? You start prosecuting 
the little dealers and you make them tell who they got it from, 
and pretty soon you have gotten the big dealer. But to say you 
are going to start at the top is silly, from my experience.
    With regard to the HIDTA program, I understand that the 
management of that has been turned over to the drug czar's 
office and away from the Department of Justice. Are you able to 
make any comment on whether you think that is an effective 
organization structure for HIDTA, or should it be within the 
Department of Justice?
    Mr. Marshall. It has actually always been, to my 
recollection, in the Office of Drug Control Policy. It is their 
funds and they manage the overall program. DEA has quite a bit 
of involvement in that program, as does the FBI, Customs, and 
the Department of Justice. You know, I think that is a 
legitimate question. I think that it maybe bears further 
examination as to where the management of that program should 
be.
    Senator Sessions. Well, DEA, in my opinion, has a single 
mission and it is very effective in that mission. I salute you. 
My experience is that DEA agents know what their job is and 
they go about doing it effectively, and they put their lives at 
risk. Over the last decade or so, they have become much better 
in working with State and local law enforcement, to the benefit 
of both. If we keep that up, I believe we will be in good 
shape.
    Sometimes, I wonder about the billions we are spending 
there and we can't find a few million for you to hire just a 
few more agents to work within the cities and communities ofthe 
United States. If I have a criticism of the war on drugs, I think it is 
that we are looking for causes outside ourselves, and if we utilized 
our resources effectively, particularly through DEA, and the local 
police increase their narcotics units, we can as a Nation make a 
reduction in narcotics possible.
    Thank you so much for your testimony. Unless there is 
anything else, we will stand adjourned.
    [Whereupon, at 12:01 p.m., the Caucus was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7601A.035
    
    [GRAPHIC] [TIFF OMITTED] T7601A.036
    
    [GRAPHIC] [TIFF OMITTED] T7601A.037
    
    [GRAPHIC] [TIFF OMITTED] T7601A.038
    
    [GRAPHIC] [TIFF OMITTED] T7601A.039
    
    [GRAPHIC] [TIFF OMITTED] T7601A.040
    
    [GRAPHIC] [TIFF OMITTED] T7601A.041
    
    [GRAPHIC] [TIFF OMITTED] T7601A.042
    
    [GRAPHIC] [TIFF OMITTED] T7601A.043
    
    [GRAPHIC] [TIFF OMITTED] T7601A.044
    
    [GRAPHIC] [TIFF OMITTED] T7601A.045
    
    [GRAPHIC] [TIFF OMITTED] T7601A.046
    
    [GRAPHIC] [TIFF OMITTED] T7601A.047
    
    [GRAPHIC] [TIFF OMITTED] T7601A.048
    
    [GRAPHIC] [TIFF OMITTED] T7601A.049
    
    [GRAPHIC] [TIFF OMITTED] T7601A.050
    
    [GRAPHIC] [TIFF OMITTED] T7601A.051
    
    [GRAPHIC] [TIFF OMITTED] T7601A.052
    
    [GRAPHIC] [TIFF OMITTED] T7601A.053
    
    [GRAPHIC] [TIFF OMITTED] T7601A.054
    
    [GRAPHIC] [TIFF OMITTED] T7601A.055
    
    [GRAPHIC] [TIFF OMITTED] T7601A.056
    
    [GRAPHIC] [TIFF OMITTED] T7601A.057
    
    [GRAPHIC] [TIFF OMITTED] T7601A.058
    
    [GRAPHIC] [TIFF OMITTED] T7601A.059
    
    [GRAPHIC] [TIFF OMITTED] T7601A.060
    
    [GRAPHIC] [TIFF OMITTED] T7601A.061
    
    [GRAPHIC] [TIFF OMITTED] T7601A.062
    
    [GRAPHIC] [TIFF OMITTED] T7601A.063
    
    [GRAPHIC] [TIFF OMITTED] T7601A.064
    
    [GRAPHIC] [TIFF OMITTED] T7601A.065
    
    [GRAPHIC] [TIFF OMITTED] T7601A.066
    
    [GRAPHIC] [TIFF OMITTED] T7601A.067
    
    [GRAPHIC] [TIFF OMITTED] T7601A.068
    
    [GRAPHIC] [TIFF OMITTED] T7601A.069
    
    [GRAPHIC] [TIFF OMITTED] T7601A.070
    
    [GRAPHIC] [TIFF OMITTED] T7601A.071
    
    [GRAPHIC] [TIFF OMITTED] T7601A.072
    
    [GRAPHIC] [TIFF OMITTED] T7601A.073
    
    [GRAPHIC] [TIFF OMITTED] T7601A.074
    
    [GRAPHIC] [TIFF OMITTED] T7601A.075
    
    [GRAPHIC] [TIFF OMITTED] T7601A.076
    
    [GRAPHIC] [TIFF OMITTED] T7601A.077
    
    [GRAPHIC] [TIFF OMITTED] T7601A.078
    
    [GRAPHIC] [TIFF OMITTED] T7601A.079
    
    [GRAPHIC] [TIFF OMITTED] T7601A.080
    
    [GRAPHIC] [TIFF OMITTED] T7601A.081
    
    [GRAPHIC] [TIFF OMITTED] T7601A.082
    
    [GRAPHIC] [TIFF OMITTED] T7601A.083
    
    [GRAPHIC] [TIFF OMITTED] T7601A.084
    
    [GRAPHIC] [TIFF OMITTED] T7601A.085
    
    [GRAPHIC] [TIFF OMITTED] T7601A.086
    
    [GRAPHIC] [TIFF OMITTED] T7601A.087
    
    [GRAPHIC] [TIFF OMITTED] T7601A.088
    
    [GRAPHIC] [TIFF OMITTED] T7601A.089
    
    [GRAPHIC] [TIFF OMITTED] T7601A.090
    
    [GRAPHIC] [TIFF OMITTED] T7601A.091
    
    [GRAPHIC] [TIFF OMITTED] T7601A.092
    
    [GRAPHIC] [TIFF OMITTED] T7601A.093
    

</pre></body></html>
